         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Evaluation Report




       EPA Needs to Strengthen
       Management Controls Over Its
       Travel Authorization Process
       Report No. 11-P-0223

       May 10, 2011
Report Contributors:          	                    Benjamin Beeson
                                                   Bettye Bell-Daniel
                                                   Dwayne E. Crawford
                                                   Rae Donaldson
                                                   Elizabeth Grossman
                                                   Bram Hass
                                                   Eric Lewis
                                                   Ryan Patterson
                                                   Johnny Ross
                                                   Wendy Wierzbicki




Abbreviations

EPA           U.S. Environmental Protection Agency
ES            Executive Service
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OMB           Office of Management and Budget
SES           Senior Executive Service




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                      U.S. Environmental Protection Agency 	                                                11-P-0223
                                                                                                          May 10, 2011
                      Office of Inspector General


                      At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review              EPA Needs to Strengthen Management
The Office of the Inspector         Controls Over Its Travel Authorization Process
General (OIG) became aware
that an OIG employee could           What We Found
authorize his/her own travel
despite not meeting the criteria    The EPA travel program lacks sufficient management controls to ensure that
to do so under the U.S.             travel documents are properly routed and authorized. Current travel controls do
Environmental Protection            not prevent prohibited employees from self-authorizing their travel. Also, the
Agency’s (EPA’s) Travel             EPA travel system allows unauthorized personnel to self-approve travel, and
Policy. Therefore, we sought to     does not ensure that GovTrip routing lists are controlled to ensure an
determine whether necessary         independent review of travel. We did not identify any instances of fraud during
control procedures were in place    our review. However, the lack of sufficient management controls to ensure that
for the approval of travel          travel documents are properly routed and authorized leaves the Agency’s travel
authorizations and routing          system vulnerable to fraud, waste, and abuse that may go undetected.
changes, and whether the
redelegation of authority for        What We Recommend
self-approval of travel was
consistent Agency-wide.             We recommend that the Chief Financial Officer revise the Agency’s current
                                    Delegations Manual to prevent the self-authorization of travel at any level within
Background                          the Agency. This revision should require the program and regional offices to
                                    delete outdated routing lists, fix those that are incorrect, and create new routing
GovTrip is the EPA travel           lists to match current organizational structures. We also recommend that the
management system that              Chief Financial Officer require that personnel not be on routing lists that give
provides federal travelers with     them the authority to authorize travel, and ensure that routing list managers
completely automated travel         notify the Cincinnati Financial Management Center when personnel or
planning and reimbursement          organizational changes require routing list changes. We further recommend that
capabilities. The General           the Chief Financial Officer request that the General Services Administration
Services Administration             change GovTrip to prevent self-authorization of travel and include audit trails to
authorized the use of GovTrip,      determine who made changes to routing lists. Finally, we recommend that the
which is a Northrop Grumman         Chief Financial Officer require Agency program and regional offices to assist the
Internet-based system. EPA’s        Office of the Chief Financial Officer in developing policy to effectively manage
Office of the Chief Financial       routing lists, and that computer programs be run monthly to determine whether
Officer manages GovTrip for         travelers are in compliance with policy, and investigate any exceptions.
EPA.
                                    The Agency’s response to our draft report did not specifically state concurrence
                                    or nonconcurrence with our audit findings. We noted that the Agency response
For further information,            did include an attachment that addressed each of our recommendations, along
contact our Office of               with proposed corrective actions and completion milestones.
Congressional, Public Affairs and
Management at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110510-11-P-0223.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                          May 10, 2011

MEMORANDUM

SUBJECT:	 EPA Needs to Strengthen Management Controls
          Over Its Travel Authorization Process
          Report No. 11-P-0223


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:    	       Barbara Bennett
               Chief Financial Officer


This is our report on the Office of Inspector General (OIG) evaluation of the U.S. Environmental
Protection Agency’s (EPA’s) management controls governing travel authorization and the
approval of travel vouchers using the GovTrip travel system. An OIG employee notified OIG
managers that he/she could authorize his/her own travel despite not meeting the criteria to do so
under the Agency’s Travel Policy. Subsequently, we evaluated EPA’s management controls over
the GovTrip approval and authorization process. Specifically, we wanted to determine whether
these controls are adequate to prevent unauthorized and unapproved travel using the GovTrip
system. This report summarizes the results of our evaluation.

The estimated direct labor for this report is $637,562.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or najjum.wade@epa.gov;
or Eric Lewis, Product Line Director, at (202) 566-2664 or lewis.eric@epa.gov.
EPA Needs to Strengthen Management Controls                                                                              11-P-0223
Over Its Travel Authorization Process



                                  Table of Contents 


Chapters
   1    Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1

                Background ....................................................................................................       1

                Interim Report Previously Issued ...................................................................                  3

                Noteworthy Achievement ..............................................................................                 4

                Scope and Methodology.................................................................................                4


   2    The EPA Travel System Is Vulnerable to Fraud, Waste, and Abuse ................                                               6


                EPA 1200 Delegations Manual Permits Self-Authorization of Travel .............                                        6

                EPA Travel Process Does Not Prevent Prohibited Employees From 

                  Self-Authorizing Their Travel .....................................................................                 6

                Routing List Controls Are Not Effective ..........................................................                   10

                Conclusions....................................................................................................      12

                Recommendations .........................................................................................            13

                Agency Response to Draft Report..................................................................                    13 

                OIG Evaluation of Agency Response .............................................................                      14 


   Status of Recommendations and Potential Monetary Benefits.................................                                        15




Appendices
   A    Agency Response to Draft Report....................................................................                          16


   B    Distribution .........................................................................................................       22

                                       Chapter 1

                                        Introduction
Purpose
              The Office of the Inspector General (OIG) evaluated the U.S. Environmental
              Protection Agency’s (EPA’s) management controls over GovTrip and the travel
              authorization process when we became aware that an OIG employee could
              authorize his or her own travel despite not meeting the criteria to do so under the
              Agency’s Travel Policy. As such, we sought to determine whether:

                       	 Necessary control procedures were in place to help ensure that all travel
                          authorizations were necessary and in the best interest of the government.

                       	 EPA’s travel delegation governing the redelegation of authority for self-
                          approval of travel was carried out consistently Agency-wide.

                       	 Program and regional offices had control procedures to help ensure that
                          supervisors approved all routing changes.

Background
              EPA implemented the GovTrip system in September 2008. GovTrip is a Northrop
              Grumman Internet-based system that provides federal travelers with travel planning
              and reimbursement capabilities. The system allows for the electronic submission of
              travel authorizations and travel vouchers for the approval and reimbursement of
              government travel. Figure 1 shows procedures for processing travel documents.

      Figure 1: Agency procedures for processing travel documents

                   Travel authorizations                                  Travel vouchers

          Traveler/preparer creates the travel           Traveler/preparer creates the travel voucher.
            authorization.                                 The travel voucher is electronically routed to the
          The travel authorization is routed to the        authorizing official who reviews and authorizes
            authorizing official who reviews and             the travel voucher.
            stamps the document “authorized.”              The Cincinnati Travel Team approves the
          The travel authorization is routed to an         voucher for payment.
            approver who verifies lines of accounting
            and approves the document.

      Source: GovTrip Supplemental Training Packet.



              Travelers and travel preparers use GovTrip to arrange all aspects of transportation,
              including submitting a request for and receiving reimbursement after travel.


11-P-0223                                                                                                   1
            Approving officials use GovTrip to monitor and manage all necessary
            authorizations, disbursements, and reimbursements. Federal agency travel
            administrators use GovTrip to set up and maintain data for organizations, groups,
            routing lists, and individual users.

            The Office of the Chief Financial Officer’s (OCFO’s) Cincinnati Financial
            Management Center conducts travel reviews on 10 percent of the previous month’s
            paid vouchers based on statistical sampling of reports run by Northrop Grumman.
            However, the Cincinnati Financial Management Center does not perform an
            independent assessment of travel authorizations during these reviews; it relies on
            the individual program and regional offices to ensure that travel authorizations are
            processed correctly before employees travel.

            EPA 1200 Delegation Manual

            The EPA 1200 Delegations Manual establishes Agency policy governing the
            delegation process for Agency management officials to act on behalf of the
            Administrator. The Administrator delegates authority to the Assistant
            Administrators, Regional Administrators, Associate Administrators, the General
            Counsel, Office Directors reporting directly to the Administrator, the Inspector
            General, the Administrative Law Judges, and the Environmental Appeals Board.
            These officials may redelegate the authority to subordinate levels within their own
            organizations.

            However, this authority may be redelegated only when allowed in the specific
            delegation, and redelegations must be made sequentially from one level to the next
            (e.g., Assistant Administrator to Office Director to Division Director, rather than
            from the Assistant Administrator directly to a Division Director). Further, the EPA
            1200 Delegations Manual states that the original delegate must keep a written
            record of all redelegations of authority to the lowest permissible organizational
            level or individual exercising the authority. The redelegation of authority does not
            excuse the original delegate or interim levels from the responsibility of assuring that
            their delegated authorities are exercised appropriately.

            Chapter 1-17-A, section 3.h, of the EPA 1200 Delegations Manual states that the
            authority to approve one’s own domestic travel authorizations and travel vouchers
            may only be redelegated to:

                      The Deputy Chief of Staff in the Office of the Administrator
                      Office Directors (excluding the Office of the Administrator)
                      Directors, Office of Administration and Resources Management,
                       Cincinnati, and Research Triangle Park
                      Directors of laboratories
                      Office of Research and Development Laboratory/Center/Office
                       Directors (or equivalents)




11-P-0223                                                                                          2
            According to the EPA 1200 Delegations Manual, further redelegation by these
            officials is not permitted. Chapter 1-17-B of the EPA 1200 Delegations Manual
            states that the lowest level for the self-approval of international travel is Regional
            Administrator.

            Office of Management and Budget Circular A-123

            Office of Management and Budget (OMB) Circular A-123, Management’s
            Responsibility for Internal Controls, identifies the three objectives of internal control:

                      Effectiveness and efficiency of operations
                      Reliability of financial reporting
                      Compliance with applicable laws and regulations

            Circular A-123 asserts that management is responsible for developing and
            maintaining internal control activities to comply with standards for these objectives.
            Control activities are the policies and procedures that help ensure that management
            directives are carried out. Important to our assignment, segregation of duties is a
            control activity that ensures there are separate personnel with authority to authorize
            a transaction, process the transaction, and review the transaction.

            Federal Agency Travel Administrators Manual

            Chapter 5 of the Federal Agency Travel Administrators Manual notes that GovTrip
            routing lists should establish the path that travel authorizations and vouchers must
            take to get the appropriate authorizations or approvals. In addition to specifying the
            workflow, these routing lists designate which individuals have authority to sign off
            at each step in the authorization and approval process.

Interim Report Previously Issued
            Our preliminary research phase revealed three potential areas of vulnerability
            regarding EPA’s management controls over the travel authorization process:

                   1. 	 The EPA travel program, which comprises EPA policies and GovTrip,
                        lacked necessary control procedures to assure that all travel
                        authorizations were necessary and in the best interest of the government.

                   2. The EPA 1200 Delegations Manual allows some officials to self-
                      authorize their travel. However, current control procedures over the travel
                      authorization process do not prevent prohibited employees from self-
                      authorizing their travel. We noted 199 incidents in which travel appeared
                      to be self-authorized by persons who were not delegated that authority.

                   3. 	 Poor internal controls allowed personnel to change the routing of travel
                        authorizations and vouchers without their supervisors’ approval or
                        notification.


11-P-0223                                                                                            3
                  Given the potential significance of the vulnerabilities identified, we issued an
                  interim report to the Agency, EPA Travel Program Lacks Necessary Controls
                  (Report No. 10-P-0078, issued March 9, 2010), for information purposes only. We
                  informed the Agency that we would conduct further field work analysis on these
                  issues to determine the effectiveness of management controls over the travel
                  process using the GovTrip system.

Noteworthy Achievement

                  In response to our interim report, OCFO initiated efforts to update the Agency’s
                  Resource Management Directive Systems 2550B, Travel Manual, with respect to
                  the self-approval of travel. In February 2011, OCFO requested an Agency-wide
                  review of proposed updates to the Travel Manual, which called for revisions to the
                  delegation of authority for chapters 1-17-A, “Domestic Travel”; 1-17-B,
                  “International Travel”; and 1-17-C, “Domestic Travel and International Travel for
                  the Office of the Inspector General.” These proposed revisions would no longer
                  allow self-approval of travel authorizations/vouchers and require designation of
                  alternate approvers for travelers and travel-authorizing officials. The Agency’s
                  response to our draft report indicates that the proposed completion date for these
                  revisions is July 31, 2011.

Scope and Methodology
                  We conducted field work analysis from March 2010 through February 2011 at EPA
                  headquarters in Washington, DC. Out of a universe of 1,248 self-authorized travel
                  documents,1 we identified 199 incidents of self-authorized travel authorizations and
                  travel vouchers processed from September 2008 through April 2009 that violated
                  EPA policy. The methodology used to select these incidents (and subsequent
                  violations) included whether the name of the authorizer of the travel was the same
                  as the traveler, and whether the name of the authorizer was the same as the signer of
                  the transaction. Based on our analysis of these incidents, we determined that there
                  were 197 violations.2 We followed up on our review of travel taken by Senior
                  Executive Service (SES) and Executive Service (ES) officials. We reviewed the
                  travel records of 27 SES/ES officials, which covered 114 instances in which the
                  officials authorized their own travel authorizations and/or vouchers. Using the EPA
                  1200 Delegations Manual as criteria, we found that 20 of these SES/ES officials did
                  not meet the requirements to self-authorize their travel.


1
  For the purpose of our review, we only considered the 1,248 travel documents that were self-authorized, and from
that universe we determined the number of reportable violations and concluded that EPA needs to strengthen the
management controls over its travel authorization process.
2
  Two of the 199 incidents represented test cases conducted by the OIG prior to preliminary research to determine
whether control procedures over the travel authorization process could prevent the self-authorization of travel by a
manager not authorized to approve their own travel. These tests results were successful and led to the initiation of this
assignment. As such, we did not include these two incidents when determining the overall number of violations
computed during field work analysis (i.e., 197).


11-P-0223                                                                                                                   4
                  We evaluated the effectiveness of written policies and procedures under the
                  Agency’s travel program. We contacted Agency personnel from each Assistant
                  Administrator and Regional Administrator office responsible for maintaining the
                  routing list for persons designated to authorize travel documents. We also contacted
                  Agency travel managers of the GovTrip system regarding standard procedures for
                  updating and maintaining these routing lists to ensure that travel documents are
                  routed to the appropriate Agency officials with the authority to authorize travel.

                  We also examined the travel authorizations and travel vouchers for the 197
                  violations identified to determine whether travel was in the best interest of the
                  Agency. These 197 violations comprised 119 travel authorizations and 78 travel
                  vouchers, and were chosen based on comparison of the travel authorization with the
                  travel voucher for the same trip. In analyzing actual travel authorizations and travel
                  vouchers, we reviewed travel locations, reasons for travel, authorization estimates,
                  and voucher charges to attempt to identify fraud, waste, or abuse. For 25 selected
                  staff, we also followed up our review of the files by asking supervisors whether
                  they believed the specific travel was in the best interest of the government.

                  We analyzed travel documents to determine whether proper delegation was
                  provided and that management had approved the travel. We contacted each of the
                  Agency’s Assistant Administrator and Regional Administrator offices to determine
                  whether the authority for the self-authorization of travel had been redelegated. We
                  also contacted persons who self-authorized travel and their supervisors3 to
                  determine whether these authorizations were violations and, if so, whether the
                  supervisors were aware of these transgressions.

                  We conducted our review in accordance with generally accepted government
                  auditing standards. Those standards require that we adequately plan for the audit;
                  properly supervise audit staff; obtain sufficient, appropriate evidence to provide a
                  reasonable basis for our findings and conclusions; and prepare audit documentation
                  related to the planning, conducting, and reporting for each audit. We believe that
                  the evidence obtained provides a reasonable basis for our findings and conclusions
                  based on our review objectives.




3
  Of the 197 violations, we did not interview all supervisors. Supervisors were selected for interview if their
subordinate had committed multiple violations, if the travel was international, or if the total travel cost was over
$2,000.


11-P-0223                                                                                                              5
                                  Chapter 2

            The EPA Travel System Is Vulnerable to 

                  Fraud, Waste, and Abuse 

            EPA’s travel program lacks the necessary management controls to ensure that travel
            documents are properly routed and authorized by appropriate Agency travel
            managers as required. OMB Circular A-123 requires control activities that include
            policies, procedures, and mechanisms to help ensure that agency objectives are met.
            These control procedures include proper segregation of duties (separate personnel
            with authority to authorize a transaction, process the transaction, and review the
            transaction), and the proper authorization of documentation. The EPA 1200
            Delegations Manual gives Assistant Administrators the authority to authorize and
            approve their own travel documents and to redelegate that authority to lower levels
            within the organization. We identified 197 violations in which persons authorized
            their own travel but did not meet the criteria to do so. We did not find that fraud had
            occurred in those 197 violations, but the current authorization process is
            nonetheless vulnerable to employees using government funds for unauthorized
            travel.

EPA 1200 Delegations Manual Permits Self-Authorization of Travel
            The EPA 1200 Delegations Manual allows the self-authorization of travel by high-
            ranking officials and other designated individuals through proper delegation and
            redelegation authority. As a control, the travel vouchers of all political appointees
            are fully audited, and monthly audits are conducted on 10 percent of the paid
            vouchers to other individuals. However, these audits do not include the review of
            travel authorizations. Rather, the Agency places responsibility for ensuring that
            travel authorizations are valid and in the best interest of the government with the
            office authorizing travel. We found instances in which Agency personnel authorized
            their own travel without meeting the requirements to do so. OMB Circular A-123
            states that no single individual should be able to authorize, process, and review a
            transaction. We believe the practice of allowing self-authorization of travel should
            be discontinued. Because GovTrip is an Internet-based system serving all of EPA,
            someone should always be available to independently approve travel.

EPA Travel Process Does Not Prevent Prohibited Employees From
Self-Authorizing Their Travel
            The EPA 1200 Delegations Manual allows self-authorization of travel to the level
            of Office Director through redelegation. In practice, Agency personnel lower than
            the designated level of Office Director/Laboratory Director or equivalent have self-
            authorized travel. We identified 197 violations in which travel documents were



11-P-0223                                                                                          6
                    signed by persons who did not meet the designated authorization criteria required
                    by the Agency’s domestic and international travel policies (table 1). Consequently,
                    we consider these actions to be violations of the EPA 1200 Delegations Manual.

    Table 1: Travel violations and corresponding reimbursement
                                                                                        Number of            Amount
    Organizational office                                                               violations         reimbursed
    Administrator                                                                            1               $932.51
                                                        a
    Assistant Administrator for International Affairs                                        1                707.34
    Assistant Administrator for Research and Development                                     20            23,213.77
    Assistant Administrator for Enforcement and Compliance Assurance                         49            41,252.95
    Assistant Administrator for Administration and Resources Management                      6              7,328.10
    Assistant Administrator for Air and Radiation                                            18            23,142.54
    Assistant Administrator for Prevention, Pesticides and Toxic Substances b                4              5,210.56
    Assistant Administrator for Solid Waste and Emergency Response                           7             11,135.08
    Assistant Administrator for Water                                                        12            10,107.51
    Office of Environmental Information                                                      2              1,095.95
    Office of General Counsel                                                                2                465.39
    Office of Inspector General                                                              4             10,535.17
    Region 2 New York                                                                        1              1,068.84
    Region 3 Philadelphia                                                                    9              1,926.37
    Region 4 Atlanta                                                                         16            11,376.76
    Region 5 Chicago                                                                         18            19,100.64
    Region 6 Dallas                                                                          14             7,236.64
    Region 7 Kansas City                                                                     2              1,772.88
    Region 10 Seattle                                                                        7              8,686.12
    Organization not shown                                                                   4              1,981.12
     Total                                                                                  197         $188,276.24
    Source: OIG analysis.
         a
             Now the Office of International and Tribal Affairs. 

         b
             Now the Office of Chemical Safety and Pollution Prevention.



                    These 197 violations comprised 119 travel authorizations4 and 78 travel vouchers,
                    and were chosen based on comparison of the travel authorization with the travel
                    voucher for the same trip. The total amount of $188,276.24 in table 1 represents
                    reimbursement for travel taken from September 2008 through April 2009. These
                    violations were committed by travelers representing 83 percent of EPA program
                    and regional offices. These 197 violations represented about 16 percent of the
                    1,248 travel documents available for review. The OIG did not identify any instance
                    of fraud in the review of these 197 violations.


4
 The results of our query yielded 114 vouchers with cost data to match the 119 authorizations. Five authorizations had been
cancelled, but were determined to have been improperly authorized, and therefore are violations under the EPA 1200 Delegations
Manual. These 5 violations are included in our 119 total for travel authorization violations.


11-P-0223                                                                                                                        7
            As noted in our interim report, we followed up on our review of travel taken by SES
            and ES officials. We reviewed the travel records of 27 SES/ES officials, which
            covered 114 instances in which the officials authorized their own travel
            authorizations and/or vouchers. However, using the EPA 1200 Delegations Manual
            as criteria, we found that 20 of these SES officials did not meet the requirements to
            self-authorize their travel. We noted 58 instances of travel by these SES/ES officials
            that we determined to be violations of the EPA 1200 Delegations Manual.
            Consequently, these violations represent about 51 percent of the 114 instances of
            travel we reviewed by SES/ES officials. The OIG did not identify any instance of
            fraud in the review of these 58 violations.

            We do not believe that any personnel, including SES/ES officials, should be
            allowed to authorize or approve their own travel. Self-authorization and approval
            prevents intended control procedures under OMB Circular A-123 for the proper
            segregation of duties and the proper authorization of documentation. As a result,
            EPA’s redelegation of authority allowing individuals to self-authorize or approve
            travel is a control weakness in the Agency’s travel process.

            Authorizing Office Is Responsible for Travel

            OCFO travel managers stated that designated approvers/authorizers are responsible
            for ensuring that travel authorizations are valid and in the best interest of the
            government. This statement is consistent with the EPA Travel Manual, which states
            that the supervisors are responsible for ensuring that travel is in the best interest of
            the government. OCFO travel managers stated that employees have the
            responsibility to become familiar with travel policy and procedures and comply
            with them. The EPA Travel Manual states that the signature of the authorizing
            official signifies that the proposed travel was reviewed and found to be essential to
            accomplish the Agency’s objectives. We believe that control is lost when
            employees can self-authorize travel.

            OCFO Returns Some Self-Authorized Travel Vouchers

            OCFO travel managers stated that travel vouchers are returned to employees when
            the officials discover that an employee self-authorized travel. In this instance, the
            vouchers must be re-signed and routed correctly through the appropriate authorizing
            officials. These officials also copy the supervisor on the e-mail stating why the
            voucher has been returned. In its current format, GovTrip is not capable of
            preventing the self-authorization of travel because the system does not have the
            capability of distinguishing among the creator, the signer, and the authorizer of a
            travel document. As a result, GovTrip cannot be relied on to determine when
            improper self-authorizations have occurred. Therefore, OCFO could develop a
            report to identify employees who have self-authorized travel. This report could be
            used to identify self-authorized travel documents and could be run to serve as a
            control to detect improperly self-authorized travel.




11-P-0223                                                                                              8
            Reviews Are Not Always Effective

            In our opinion, OCFO’s document review process is not always effective in
            determining whether travel was authorized in accordance with the EPA 1200
            Delegations Manual. We found 78 instances in which travel vouchers were
            processed and paid to individuals who had improperly authorized their own travel
            vouchers for payment. In these instances, the travel vouchers were not returned by
            OCFO. One employee whose travel voucher was reviewed informed us that she was
            never told that she had authorized her own travel or that it was improper. In our
            opinion, these reviews are not reliable in determining whether the travel was
            authorized in accordance with the EPA 1200 Delegations Manual. OCFO travel
            managers stated that only 10 percent of travel vouchers for employees who are not
            political appointees are audited, which further increases the likelihood that self-
            authorized travel will not be discovered.

            Employee Justifications for Self-Authorization Are Not Valid

            Employees offered various reasons for self-authorization of travel, but we found
            little merit in these justifications. Of the 197 violations identified, we found 108
            were committed by multiple violators—personnel that had more than one violation.
            The Office of Enforcement and Compliance Assurance stood out from the other
            EPA offices; its Office of Civil Enforcement, Water Enforcement Division, and
            Office of Criminal Enforcement, Forensics and Training, Criminal Investigation
            Division, accounted for 44 of the 108 violations committed by multiple violators.
            One particular multiple violator from the Office of Enforcement and Compliance
            Assurance commented that on one occasion, he self-authorized his own travel so as
            not to impede an ongoing investigation. Further, four others stated that they had
            discussed their travel with their supervisors, but acknowledged that they were not
            given the direct authority to authorize their own travel even though they had done
            so. This course of action also does not provide accountability or assurance that
            travel was in the best interest of the government.

            Finally, we found 10 instances in which individuals stated that they thought their
            supervisors had granted them the authority to self-authorize travel. However, there
            was no documentation that corroborated the delegation of authority. This course of
            action provides no accountability or assurance that travel was in the best interest of
            the government.

            Supervision Is Not Effective

            We found that supervision in these 197 instances was insufficient. We interviewed
            and surveyed by questionnaire the 26 supervisors of the employees who improperly
            authorized their own travel. For those supervisors who responded, we noted the
            following:




11-P-0223                                                                                            9
               	 Six supervisors had improperly authorized their own travel.

               	 Seven supervisors responded to our question on whether they would have
                   authorized the travel in question. These seven supervisors stated they would
                   have done so.

               	 Twenty-two supervisors responded to our question on whether they were
                   aware that a person under their supervision had inappropriately authorized
                   their own travel. These 22 supervisors stated they were not aware of these
                   improper authorizations.

Routing List Controls Are Not Effective
            We found that EPA’s travel program lacks the necessary management controls to
            ensure that travel documents are properly routed and authorized by appropriate
            Agency travel managers as required. Chapter 5 of the GovTrip Federal Agency
            Travel Administration User Manual and Training Materials states that GovTrip
            routing lists establish the path that travel authorizations and vouchers must take to
            get the appropriate authorizations or approvals. Chapter 17-1-A of the EPA 1200
            Delegations Manual states that the authority to authorize one’s own domestic travel
            authorizations and travel vouchers may only be redelegated to the lowest
            permissible level of Office Director/Laboratory Director or equivalent. However,
            current efforts within the program offices and regions have not successfully ensured
            that GovTrip routing lists are controlled to prevent unauthorized personnel below
            these redelegated positions from self-authorizing their own travel.

            Routing Lists Show Approval Authority and Workflow

            The GovTrip Federal Agency Travel Administration User Manual and Training
            Materials notes that GovTrip routing lists establish the path that travel
            authorizations and vouchers must take to get the appropriate authorizations or
            funding approvals. The GovTrip Federal Agency Travel Administration User
            Manual and Training Materials also directs that individuals be designated with the
            authority to sign off at each step in the authorization and funding approval process.
            According to OCFO travel managers, GovTrip requires routing lists to push the
            document through the system for appropriate authorization and funding approval.
            These routing lists are critical because they structure the electronic review process.
            Routing lists are developed by travel coordinators in program offices and by federal
            agency travel administrators in the regions. These lists contain the names of those
            designated with the authority to sign off at each step in the authorization and
            funding approval process, signifying that the proposed travel was reviewed and was
            deemed essential to accomplish the Agency’s objectives.

            OCFO officials stated that GovTrip cannot distinguish between the creator, signer,
            and authorizer. Consequently, when routing lists are not updated and properly
            maintained, improperly self-authorized travel can be processed through GovTrip.
            For example, if employees are granted authorization authority for routing lists that


11-P-0223                                                                                          10
                     already include their names as travelers, then they could authorize their own travel.
                     Similarly, if employees are assigned as backup routing officials for routing lists that
                     included them before they became backups, then they could authorize their own
                     travel. We found two main program offices (Office of Water and Office of Solid
                     Waste and Emergency Response) each with a suboffice5 that has adopted the
                     practice of ensuring that authorizing officials and backups are not listed within the
                     groups for which they have authorization authority. Our analysis of these two main
                     offices revealed violations for improper self-authorization of travel. However, if
                     routing lists were updated and properly maintained, we believe that this would be a
                     useful approach in preventing employees from authorizing their own travel
                     documents.

                     Employees Can Change Routing Lists

                     Agency procedures and the GovTrip system allow users to change their routing
                     without supervisory approval or notification. We conducted two tests to determine
                     the effectiveness of routing controls. One test involved an OIG employee
                     submitting an e-mail to the Agency’s GovTrip helpdesk requesting a routing list
                     change to another supervisor. A second test was conducted with an employee using
                     the GovTrip system to change the employee’s designated routing list. In both tests,
                     the objective was to make the change without notifying the supervisor. Both tests
                     resulted in personnel successfully changing to another routing list and supervisor
                     with no notification to the actual supervisors. Ineffective controls over the routing
                     lists create the following vulnerabilities:

                              	 Employees can change to routing lists in which they have authorization
                                   authority and therefore can self-authorize their travel.

                              	 Employees can change routing to a supervisor willing to sign for
                                   unauthorized travel with no opportunity for independent review.

                     We were told by OCFO travel managers that individual program and regional
                     offices are responsible for maintaining the accuracy of their routing lists, and that
                     the GovTrip helpdesk personnel cannot ensure that all changes to routing lists are
                     appropriate because of the frequency with which these types of changes occur.
                     These travel managers stated that the Agency’s Travel Manual is being revised to
                     include language stipulating that routing changes must be submitted in writing (by
                     e-mail) to the Cincinnati Financial Management Center by the appropriate routing
                     list requestor. These travel managers stated that the Cincinnati Financial
                     Management Center will not accept changes from travelers, and that the appropriate
                     designated official must provide the updates to Cincinnati Financial Management
                     Center.




5
    The Office of Site Remediation Enforcement and the Office of Wetlands, Oceans, and Watersheds, respectively.



11-P-0223                                                                                                          11
            Program Office Process for Changing Routing Lists Is Unreliable

            Currently, program offices rely on designated travel coordinators to update routing
            lists. These travel coordinators are required to e-mail the Cincinnati Financial
            Management Center with any changes to authorization privileges. Program office
            travel coordinators stated that they:

                      Relied on supervisors or employees to inform them of necessary changes
                       to routing
                      Acted on the general guidance provided by the Cincinnati Financial
                       Management Center
                      Obtained personnel change information from administrative officers

            However, this process is unreliable. As we noted, any employee can e-mail OCFO
            staff to request a routing list change, or simply change the routing themselves.
            OCFO travel managers stated that GovTrip controls do not provide an audit trail
            identifying who made the changes to the routing lists. Consequently, GovTrip does
            not have a means to identify personnel who may change routing lists to commit
            fraud, waste, or abuse. We believe that these are essential controls and, without
            these controls, a serious vulnerability exists.

            Regional Offices Have Documented Procedures, but Timeliness Issues
            Persist

            OCFO allows the regions to have federal agency travel administrators to manage
            the routing lists. Federal agency travel administrators reported various levels of
            assurance regarding procedures for making routing list changes, including:

                      The use of specific forms to obtain a supervisor’s approval before
                       making a routing change
                      The use of Standard Form 52s, which they receive and use to change
                       routing when needed
                      The reliance on e-mails from supervisors before a routing list is
                       changed.

            Federal agency travel administrators also expressed concern about not being
            notified in a timely manner of personnel changes that would also require changes in
            GovTrip routing lists. One travel administrator believed that his ability to get signed
            Standard Form 52s in a timely manner to update routing lists was hampered when
            personnel processing was assumed by the EPA Shared Service Centers.

Conclusions
            Necessary control procedures are not in place to help ensure that all travel
            authorizations were necessary and in the best interest of the government. While the
            EPA 1200 Delegations Manual allows self-authorization of travel at designated



11-P-0223                                                                                         12
            levels of authority, EPA’s current travel controls do not prevent unauthorized travel
            by employees who are prohibited from doing so. Consequently, this leaves EPA
            travel system vulnerable to fraud, waste, and abuse. Finally, we found that Agency-
            wide procedures are needed to help ensure that program and regional supervisors
            consistently approve all routing changes. We noted varying or no controls at
            program and regional offices regarding this particular issue.

Recommendations
            We recommend that the Chief Financial Officer:

               1. 	 Revise the Agency’s current Delegations Manual to prevent the self-
                    authorization of travel at any level within the Agency. This revision should:

                           a. 	 Require the program and regional offices to delete outdated
                                routing lists, fix those that are incorrect, or create new routing
                                lists that are needed to match current organizational structures.

                           b. 	 Require that personnel not be on routing lists that give them the
                                authority to authorize travel.

                           c. 	 Ensure that routing list managers notify the Cincinnati Financial
                                Management Center expeditiously and submit appropriate
                                documentation when personnel or organizational changes require
                                routing list changes (e.g., adding new employees, changing the
                                approver for current employees, and making changes relative to
                                departure or promotion of current employees).

               2. 	 Request that the General Services Administration change GovTrip to
                    prevent self-authorization of travel and include audit trails to determine who
                    made changes to routing lists.

               3.	 Require Agency program and regional offices to assist OCFO in developing
                   policy to effectively manage routing lists.

               4. 	 Develop scripts to determine whether travelers are in compliance with
                    policy for managing routing lists, run the scripts monthly, and investigate
                    exceptions.

Agency Response to Draft Report

            The Agency provided its response to our draft report on March 25, 2011. The
            Agency’s response included its interpretation of what it believed the percentage of
            self-authorization violations were relative to the number of travel documents they
            indicated were processed during the period of our review. This interpretation was
            the Agency’s only comment regarding the findings in the report. The Agency


11-P-0223                                                                                            13
            response also included an attachment that addressed each of our recommendations,
            along with proposed corrective actions and completion milestones.

OIG Evaluation of Agency Response
            We noted that the Agency did not specifically state concurrence or nonconcurrence
            with our audit findings. Rather, the Agency determined a violation rate of 0.4 percent
            based on comparison of the 197 violations to a total universe of 45,662 travel
            documents that the Agency said were processed during the period of our review. The
            Agency did not provide documentation of how they arrived at the universe of 45,662
            travel documents. Nonetheless, our review efforts were to evaluate EPA’s
            management controls over GovTrip and the travel authorization process. Our
            universe of 1,248 travel documents consisted only of self-authorized travel
            documents. These documents were obtained from travel records from the Agency’s
            Financial Data Warehouse and were certified as accurate by the EPA GovTrip
            managers. We added language to the report to clarify that our universe consisted of
            1,248 instances of self-authorized travel and 197 instances in which the self-
            authorized travel “violated EPA policy.” More importantly, our review efforts show
            that the 197 violations are evidence that a management control weakness exists that
            could allow, or fail to prevent or detect, fraud, waste, or abuse in the Agency’s travel
            processes or travel system.

            The Agency’s response to our draft report is in appendix A. In accordance with
            EPA Manual 2750, the Agency’s final concurrence or nonconcurrence to our
            findings and recommendations is due 90 days from the issuance this report.




11-P-0223                                                                                        14
                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1      Action Official           Date      Amount      Amount

     1       13     Revise the Agency’s current Delegations Manual to          O       Chief Financial Officer    07/31/11
                    prevent the self-authorization of travel at any level
                    within the Agency. This revision should:
                      a.   Require the program and regional offices to
                           delete outdated routing lists, fix those that
                           are incorrect, or create new routing lists that
                           are needed to match current organizational
                           structures.
                      b.   Require that personnel not be on routing
                           lists that give them the authority to
                           authorize travel.
                      c.   Ensure that routing list managers notify the
                           Cincinnati Financial Management Center
                           expeditiously and submit appropriate
                           documentation when personnel or
                           organizational changes require routing list
                           changes (e.g., adding new employees,
                           changing the approver for current
                           employees, and making changes relative to
                           departure or promotion of current
                           employees).

     2       13     Request that the General Services Administration           O       Chief Financial Officer    11/12/13
                    change GovTrip to prevent self-authorization of
                    travel and include audit trails to determine who
                    made changes to routing lists.
     3       13     Require Agency program and regional offices to             O       Chief Financial Officer    07/31/11
                    assist OCFO in developing policy to effectively
                    manage routing lists.

     4       13     Develop scripts to determine whether travelers are         O       Chief Financial Officer    11/12/13
                    in compliance with policy for managing routing lists,
                    run the scripts monthly, and investigate exceptions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0223                                                                                                                                            15
                                                                                    Appendix A

                   Agency Response to Draft Report


MEMORANDUM

SUBJECT:      Response to the Draft Report: Office of Inspector General Evaluation of EPA’s
              Travel Authorization Process, Project No. OPE-FY10-0016, dated February 17,
              2011

FROM:         Barbara J. Bennett
              Chief Financial Officer

TO:           Arthur A. Elkins, Jr.
              Inspector General

        Thank you for providing us with the opportunity to comment on and respond to the
findings and recommendations made in the “Draft Report: Office of Inspector General Evaluation
of EPA’s Travel Authorization Process.” We have reviewed the draft report and wish to correct
information provided in the Scope and Methodology section (page 4) of the report. The report
states that from a universe of 1,248 travel documents, OIG identified 197 incidents of self-
authorized travel authorizations and travel vouchers processed from September 2008 through April
2009. The actual number of travel documents processed during this period was 45,662. The 1,248
figure represents the total number which was self-approved while the 197 incidents represent the
number which did not have the authority for self-approval. Therefore, the percent of documents
self approved by individuals not delegated this authority was 0.4%.

       If you have any questions concerning the audit response, please contact Stefan Silzer,
Director, Office of Financial Management, at (202) 564-5389 or Raffael Stein, Director, Office of
Financial Services at (202) 564-5385.

Attachment

cc: 	Maryann Froehlich
     Wade Najjum
     Joshua Baylson
     Elizabeth Grossman
     Eric Lewis
     Stefan Silzer
     Raffael Stein
     Susan Dax
     Melvin Visnick
     Jeanne Conklin



11-P-0223                                                                                           16
    Jim Wood
    Dale Miller
    Deborah Vanselow
    Sara Floyd
    Khari Nelson
    Sandy Dickens
    Janice Kern
    Benjamin Beeson
    Bettye Bell-Daniel
    Dwayne E. Crawford
    Rae Donaldson
    Bram Hass
    Ryan Patterson
    Johnny Ross
    Wendy Wierzbicki




11-P-0223                17
                                                                                        Attachment

                         OCFO’s Response to OIG Draft Report
         “Office of Inspector General Evaluation of EPA’s Travel Authorization Process”
                       Project No. OPE-FY10-0016, dated February 17, 2011

Rec.     OIG Recommendation                Action          Proposed Corrective           Proposed
No.                                       Official(s)            Action                 Completion
                                                                                           Date

1.     Revise the Agency’s current      OCFO/Office of   1.1 The revised Official       7/31/2011
       delegations manual to            Financial        Travel Policy Manual,
       prevent the self-authorization   Management       Section III. Delegations of
       of travel at any level within    (OFM)            Authority 1-17-A, 17-B,
       the Agency. This revision                         and 17-C, states no self-
       should:                                           authorization of travel at
                                                         any level within the
                                                         Agency. The manual is
                                                         currently in the Agency’s
                                                         Directives Clearance
                                                         Review with comments
                                                         due back April 1, 2011.
                                                         We anticipate issuance by
                                                         July 2011.

       a. Require the program and       OFM              1.1.a. The revised             7/31/2011
          regional offices to delete                     Official Travel Policy
          outdated routing lists, fix                    Manual, Section IV.
          those that are incorrect,                      Responsibilities, requires
          or create new routing                          program and regional
          lists that are needed to                       offices to maintain routing
          match current                                  lists, send official changes
          organizational structures.                     to Cincinnati Finance
                                                         Center (CFC) and request
                                                         changes from appropriate
                                                         supervisors or authorizing
                                                         officials.


       b. Require that personnel        OFM              1.1.b. The revised Official    7/31/2011
          not be on routing lists                        Travel Policy Manual,
          that give them the                             Section IV.
          authority to authorize                         Responsibilities, states
          travel.                                        CFC will not accept
                                                         routing changes from
                                                         employees (travelers).


11-P-0223                                                                                       18
Rec.     OIG Recommendation              Action          Proposed Corrective          Proposed
No.                                     Official(s)            Action                Completion
                                                                                        Date
                                                       Section III. The
                                                       Delegations of Authority
                                                       states alternate designated
                                                       individuals must authorize
                                                       or approve travel for
                                                       travel authorizing
                                                       officials. Additionally, in
                                                       collaboration with CFC,
                                                       each program office and
                                                       region should supplement
                                                       these guidelines, as
                                                       needed, to comply with
                                                       internal controls and
                                                       segregation of duties.

       c. Ensure that routing list    OFM              1.1.c. The revised            7/31/2011
          managers notify the                          Official Travel Policy
          Cincinnati Financial                         Manual, Section IV.
          Management Center                            Responsibilities, informs
          expeditiously and submit                     CFC that appropriate
          appropriate                                  designated officials for
          documentation when                           employees must provide
          personnel or                                 updates - approvers for
          organizational changes                       new employees, new
          require routing list                         approver for current
          changes (e.g., adding                        employees, and removal
          new employees,                               of an approver no longer
          changing the approver                        with the office or no
          for current employees,                       longer an employee. The
          and making changes                           updates require a
          relative to departure or                     signature, date, and
          promotion of current                         submission in portable
          employees).                                  document format (PDF)
                                                       via e-mail to CFC.


2.     Request that General           Office of        2.1 The current contract        Before
       Services Administration        Financial        with GovTrip expires on       11/12/2013
       change GovTrip to prevent      Services (OFS)   November 12, 2013.
       self-authorization of travel                    However, EPA will most
       and include audit trails to                     likely transition to a new
       determine who made                              service provider prior to
       changes to routing lists.                       this deadline. A routing



11-P-0223                                                                                     19
Rec.     OIG Recommendation             Action         Proposed Corrective             Proposed
No.                                    Official(s)           Action                   Completion
                                                                                         Date
                                                     list audit trail is one of the
                                                     requirements under the E-
                                                     Gov Travel Service 2
                                                     (ETS2) contact. At this
                                                     time, OCFO sees updating
                                                     GovTrip with the addition
                                                     of a routing list audit table
                                                     as cost prohibitive.
                                                     Furthermore, since not all
                                                     agencies use GovTrip in
                                                     the same manner as EPA,
                                                     a change to prevent self-
                                                     authorization is not
                                                     feasible. OFCO believes
                                                     that this control will be
                                                     captured when the routing
                                                     lists are updated for
                                                     compliance with
                                                     recommendations 1a, b,
                                                     and c.


3.     Require Agency program         OFM            3.1 The revised Official         7/31/2011
       and regional offices to assist                Travel Policy Manual,
       OCFO in developing policy                     Section IV.
       to effectively manage routing                 Responsibilities – CFC,
       lists.                                        states in collaboration
                                                     with CFC, program
                                                     offices and regions should
                                                     supplement these
                                                     guidelines, as needed, to
                                                     comply with internal
                                                     controls and separation of
                                                     duties.


4.     Develop scripts to determine   OFS            4.1 The routing list audit         Before
       whether travelers are in                      table in the ETS2 product        11/12/2013
       compliance with policy for                    will allow OCFO to run a
       managing routing lists, run                   list of changes that
       the scripts monthly, and                      occurred during the
       investigate exceptions.                       reporting period. OCFO
                                                     would then be able to


11-P-0223                                                                                      20
Rec.    OIG Recommendation    Action         Proposed Corrective          Proposed
No.                          Official(s)           Action                Completion
                                                                            Date
                                           compare the list to the
                                           requests received for the
                                           same period and
                                           investigate exceptions. In
                                           the meantime, OCFO has
                                           developed a report that
                                           provides a list of vouchers
                                           where the traveler’s name
                                           and the authorizer are the
                                           same. CFC will run this
                                           report monthly and
                                           require additional
                                           documentation from any
                                           exceptions it produces.




11-P-0223                                                                        21
                                                                            Appendix B

                                     Distribution
Office of the Administrator
Chief Financial Officer
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of the Chief Financial Officer




11-P-0223                                                                                22
